No. 20IN THE

'upreme Court of tjje ainiteb Otatefi
THE EPISCOPAL CHURCH, ET AL.,
Petitioners,
v.
THE EPISCOPAL DIOCESE OF FORT WORTH, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
Supreme Court of Texas

PETITION FOR A WRIT OF CERTIORARI

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
8,996 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 19, 2020.

Colin Casey HHtffgan
Wilson-Epes Printing Co., Inc.

